Audit Report

Office of Community Oriented Policing
Services Grants to the St. Regis Mohawk Tribal Police Department, 
New York

Report No. GR-70-05-008


February 2005
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of Tribal Resources- Equipment/Training grants #2000HEWX0069, #2001HEWX0074, #2002HEWX0072, and #2003HEWX0021 and Tribal Hiring Renewal grant #2001HRWX0001 awarded by the Office of Community Oriented Policing Services (COPS) to the St. Regis Mohawk Tribal                Police Department (Police Department).  The purpose of the grants is to enhance community policing.  The Police Department was awarded a total of $626,038 to renew three officer positions and purchase equipment and police training.

We determined the Police Department did not fully comply with COPS grants requirements.  We found weaknesses in the Police Departments reimbursement requests and retention of officer positions.  As a result of the deficiencies identified below, we are reporting $35,763 in dollar-related findings, which is about 6 percent of grant and required local match funding we audited.1

The Police Department charged the Tribal Hiring Renewal 
Grant Program grant for unallowable costs for officer salaries and fringe benefits that exceeded the 
2-year grant term. 

	The Police Department did not obligate and expend all the funds for two of the five grants we audited.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.   



Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.